                                                                               OIG Recovery Act Plan Overview
                                      OIG Name: U.S. Small Business Administration, Office of Inspector General

                                                The OIG has developed oversight plans for deploying additional resources to monitor, evaluate, and report on the performance and oversight of SBA's programs
                                                under the Act. These new programs and program changes are inherently high risk, requiring the Agency to establish effective controls and adequate oversight.
                  OIG Broad Recovery Act Goals:
                                                Therefore, the OIG’s oversight efforts will focus heavily on assessing these controls and detecting and deterring fraud, waste and abuse in Recovery Act
                                                programs.
                                                The OIG conducted outreach efforts to raise fraud awareness and engage industry trade groups. Outreach efforts focused on providing SBA lenders and
   OIG Broad Training and Outreach Recovery Act employees with information on detecting fraud patterns that have been identified in OIG loan fraud investigations through written guidance, website
                                         Goals: information, and presentations at trade group events, as well as notifying the public of scams. Additionally, the OIG will be posting the results of audits and
                                                other reviews on its Recovery Act website. We plan to continue outreach efforts in FY 2010.

                                                The OIG has taken a number of actions to alert Agency managers of risks and recommend cost effective controls to help prevent fraud, waste, and abuse, and
                                                ensure program goals are achieved and stimulus funds are accurately tracked and reported. In FY 2010 we will review Agency regulations and procedures for
      OIG Recovery Act Risk Assessment Process: the new secondary market programs under the Recovery Act. Additionally, began conducting periodic reviews of loan quality and we will determine whether
                                                the Agency has taken the required steps, beyond standard practice, to initiate additional oversight mechanisms for programs funded by the Recovery Act. As we
                                                identify risks, we have and will continue to provide Agency managers with comments and recommendations for ways to mitigate these risks.


                         OIG Recovery Act Funds: $10,000,000
      Expiration Date of OIG Recovery Act Funds: September 30, 2013


  OIG Recovery Act Funds Allocated to Contracts: Yes
              Purpose of Recovery Act Contracts: Contractors will be used to assist with loan review audits and financial statement audits.
     Types of Recovery Act Contracts Awarded to
                                                 Fixed price modification of the existing financial statement audit contract.
                                          Date:

             Link to OIG Recovery Act Work Plan: www.sba.gov/ig/recovery




Page 1 of Overview                                                                                                                                                                          2010RecoveryActWorkPlan.xls
                                                                                                       OIG FY 2010 Recovery Act Work Plan

                                                                                                                                                                                                                                      Review
                                                                                                                                                                                                                                   Included on   Expected   Expected
                                Recovery Act Funds                                                                                                                                                                                                                         Expected
                                                                        Entity Performing                                                                                                                                              Prior      Quarter   Quarter(s)
    Agency       Program Area       Associated         Type of Review                             Project Title                         Background                                               Objective                                                                Number of
                                                                             Review                                                                                                                                                  Recovery      Work      Reports
                                 w/Program Area                                                                                                                                                                                                                             Reports
                                                                                                                                                                                                                                     Act Plan     Begins      Issued
                                                                                                                                                                                                                                       (Y/N)


                                                                                                                     The American Recovery and Reinvestment Act of
                                                                                                                     2009 (Recovery Act) provides for many
                                                                                                                     enhancements to current SBA programs to begin
                                                                                                                     economic recovery for our country’s small
                                                                                                                     business sector. The Recovery Act provides
                                                                                                                     reduced loan fees, higher SBA guaranties on loans,
                                                                                                                     and the creation of new SBA credit programs. In
                                                                                                                     times of economic instability, SBA’s programs
                                                                                            Reviews of Loans Made
                                                                                                                     suffer increased vulnerability to fraud and            To determine if loans disbursed pursuant to the
                                                                                            Under the American                                                                                                                                               Q1 FY 10
              Loans and Loan                                                                                         unnecessary losses as demonstrated by SBA’s            Recovery Act were originated and closed in
      SBA                       $630,000,000         Performance        OIG Staff           Recovery and                                                                                                                              Yes        Q4 FY 09   Q2 FY 10 Q3         3
              Guarantees                                                                                             response after the 9-11 attacks and the Gulf Coast     accordance with SBA’s policies and procedures
                                                                                            Reinvestment Act of                                                                                                                                                FY 10
                                                                                                                     Hurricanes. With increased guaranties, lenders         and to identify any evidence of suspicious activity.
                                                                                            2009
                                                                                                                     will have reduced risk and may not exercise due
                                                                                                                     diligence in originating loans thereby potentially
                                                                                                                     increasing SBA losses. Additionally, SBA’s
                                                                                                                     oversight may not be as effective in identifying red
                                                                                                                     flags in loan applications due to public pressure to
                                                                                                                     increase lending. An audit of the origination of
                                                                                                                     loans disbursed pursuant to the Recovery Act is
                                                                                                                     warranted.




                                                                                                                    The Recovery Act authorizes $6 million for direct
                                                                                                                    lending under SBA’s Microloan program. A
                                                                                                                    previous OIG report identified significant internal
                                                                                                                    control weaknesses in the administration of the
                                                                                                                    Microloan program. In May 2003, the OIG issued
                                                                                                                    a report on the Microloan Program that found (1)
                                                                                                                    monitoring was not sufficient to catch duplicate
                                                                                                                    and ineligible microloans; (2) there was no
                                                                                                                    Standard Operating Procedure, requiring staff and
                                                                                            SBA's Microloan Program participants to rely on other documents with            To determine whether SBA (1) has taken effective
                                                                                            Expansion Under the     various shortcomings; and (3) performance               risk mitigation actions to minimize unnecessary
                                                                                                                                                                                                                                                             Q1 FY 10
      SBA     Microloans        $6,000,000           Performance        OIG Staff           American Recovery and standards for intermediaries were inadequate. As          program losses, and (2) has the proper resources          Yes        Q4 FY 09                       2
                                                                                                                                                                                                                                                             Q3 FY 10
                                                                                            Reinvestment Act of     a result of the significant Recovery Act funding and    and tools in place to effectively monitor and
                                                                                            2009                    known program weaknesses, SBA began a “best             report on program performance.
                                                                                                                    practices” review of the program and expects to
                                                                                                                    make major changes to the Microloan Program
                                                                                                                    before Recovery Act funds are disbursed. The OIG
                                                                                                                    will evaluate whether SBA has sufficient resources,
                                                                                                                    procedures, data and performance measures in
                                                                                                                    place to assess program performance and whether
                                                                                                                    the Agency's new program policy, which is
                                                                                                                    currently in development, to determine their
                                                                                                                    effectiveness.




Page 1 of Work Plan                                                                                                                                                                                                                                              2010RecoveryActWorkPlan.xls
                                                                                                       OIG FY 2010 Recovery Act Work Plan

                                                                                                                                                                                                                                           Review
                                                                                                                                                                                                                                        Included on   Expected   Expected
                                Recovery Act Funds                                                                                                                                                                                                                              Expected
                                                                        Entity Performing                                                                                                                                                   Prior      Quarter   Quarter(s)
    Agency       Program Area       Associated         Type of Review                             Project Title                           Background                                                  Objective                                                                Number of
                                                                             Review                                                                                                                                                       Recovery      Work      Reports
                                 w/Program Area                                                                                                                                                                                                                                  Reports
                                                                                                                                                                                                                                          Act Plan     Begins      Issued
                                                                                                                                                                                                                                            (Y/N)

                                                                                                                     The Recovery Act calls for unprecedented levels of
                                                                                                                     transparency and accountability in carrying out
                                                                                                                     Agency programs. On April 3, 2009 the Office of
                                                                                                                     Management and Budget (OMB) issued
                                                                                            Review of Program        Memorandum M-09-15, Updated Implementing           To: (1) determine whether SBA’s performance
                                                                                            Statistics Reported by   Guidance for the American Recovery and Reinvestment
                                                                                                                                                                                 metrics adequately measure Recovery Act
              Program                                Administrative /                       SBA Under the American   Act of 2009 . Sections 2.7 and 2.8 of this Memorandum                                                                                       Q1 FY 10
      SBA                       $636,000,000                            OIG Staff                                                                                                program performance; and (2) assess data                  Yes        Q3 FY 09                       2
              Administration                         Financial                              Recovery and             require Agencies receiving Recovery Act funding to                                                                                          Q3 FY 10
                                                                                            Reinvestment Act of      develop Agency-wide and program-specific recovery           quality controls to ensure that reported
                                                                                                                     plans that include performance measures to assess the       performance data is accurate.
                                                                                            2009
                                                                                                                     quantifiable outcome of the programs. The
                                                                                                                     Memorandum also requires Agencies to consult with the
                                                                                                                     OIG to establish procedures to validate the accuracy of
                                                                                                                     information submitted on a statistical basis and/or risk-
                                                                                                                     based approach as approved by OMB.


                                                                                                                     In accordance with Office of Management and
                                                                                                                     Budget's Recovery Act guidance, agencies are
                                                                                                                     required to take steps, beyond standard practice,
                                                                                                                     to initiate additional oversight mechanisms for
                                                                                                                     programs funded by the Recovery Act. At a                   To determine: (1) the adequacy of staffing and risk
                                                                                                                     minimum, agencies are to evaluate and                       mitigation plans developed by the Agency to meet
                                                                                            SBA's Response to the    demonstrate the effectiveness of standard                   the increased oversight requirements of the
              Program                                Administrative /                       Increased Oversight      monitoring and oversight practices. Agencies are            Recovery Act; (2) the effectiveness of the Agency’s
      SBA                                                               OIG Staff                                                                                                                                                          Yes        Q2 FY 10   Q4 FY 10            1
              Administration                         Financial                              Requirements of the      also required to enhance performance                        implementation of these plans; and (3) if the
                                                                                            Recovery Act             management and accountability processes, as well            Agency’s lender and loan monitoring system is
                                                                                                                     as implement appropriate internal control                   used in providing increased oversight of Recovery
                                                                                                                     assessments to define strategies to prevent and             Act loans.
                                                                                                                     timely detect waste, fraud and abuse. Ongoing
                                                                                                                     audits have identified problem loans originated by
                                                                                                                     SBA and delegated lenders that will require
                                                                                                                     additional monitoring and oversight by SBA.



                                                                                                                    The Recovery Act created a new, 2-year program
                                                                                                                    to establish a Secondary Market Guaranty
                                                                                                                    Authority for 504 loans. Under this program, SBA
                                                                                                                    will issue guaranties for the sale of first lien
                                                                                                                    position loans issued by private lenders under the
                                                                                                                    504 program and develop a secondary market for               To determine whether: (1) SBA has established an
                                                                                            Periodic Review of the  the purchase of these loans or pools of loans. The           adequate process for evaluating applications for
                                                                                            Use of SBA's Secondary program is set to expire February 17, 2011. This              guaranties on pools of 504 first lien loans; and (2)
      SBA     504 Programs                           Performance        OIG Staff                                                                                                                                                          Yes        Q3 FY 10   Q4 FY 10       1 or more
                                                                                            Market Authority on 504 program results in SBA guaranties of first                   SBA’s guaranties were properly applied to 504
                                                                                            Loans                   mortgages made by private sector lenders to small            loans and the pools of guaranteed loans were sold
                                                                                                                    businesses. Since these are not SBA delegated                to third party investors as required.
                                                                                                                    lenders, they are not subject to SBA’s guidance
                                                                                                                    and SOPs. Unlike participating 7(a) lenders, SBA
                                                                                                                    has no recourse against these 504 lenders for
                                                                                                                    loans poor underwriting and/or serviced. This
                                                                                                                    greatly increases the risk of SBA losses.




Page 2 of Work Plan                                                                                                                                                                                                                                                   2010RecoveryActWorkPlan.xls
                                                                                                         OIG FY 2010 Recovery Act Work Plan

                                                                                                                                                                                                                                    Review
                                                                                                                                                                                                                                 Included on   Expected   Expected
                                  Recovery Act Funds                                                                                                                                                                                                                     Expected
                                                                          Entity Performing                                                                                                                                          Prior      Quarter   Quarter(s)
    Agency       Program Area         Associated         Type of Review                             Project Title                       Background                                              Objective                                                               Number of
                                                                               Review                                                                                                                                              Recovery      Work      Reports
                                   w/Program Area                                                                                                                                                                                                                         Reports
                                                                                                                                                                                                                                   Act Plan     Begins      Issued
                                                                                                                                                                                                                                     (Y/N)



                                                                                                                     SBA guaranties loans that are made by
                                                                                                                     participating lenders under a Guaranty Agreement
                                                                                                                     to originate, service, and liquidate loans in
                                                                                                                     accordance with SBA’s rules and regulations.
                                                                                                                     When a loan defaults, the lender can request
                                                                                                                     payment of the guaranty. SBA reviews loan
                                                                                                                     documentation to evaluate the lender’s
                                                                                                                     compliance with program rules and regulations.         To determine whether purchased loans were
                                                                                                                     This review is SBA’s primary control for ensuring      originated, closed, and liquidated in accordance                              Q1 FY 11
                                                                                              Audits of Purchased
              Loans and Loan                                                                                         lender compliance and preventing improper              with SBA’s rules and regulations and commercially                             Q2 FY 11
        SBA                       $630,000,000         Performance        Contractor          Loans Made Under the                                                                                                                   No        Q3 FY 10                       4
              Guaranties                                                                                             payments. In the event of noncompliance, SBA           prudent lending standards for 7(a), 504 (including                            Q3 FY 11
                                                                                              Recovery Act
                                                                                                                     may be released from its liability on a loan           refinancing), and American Recovery Capital (ARC)                             Q4 FY 11
                                                                                                                     guaranty, in full or in part. Previous OIG audits      loans.
                                                                                                                     have identified material lender noncompliance in
                                                                                                                     loan origination, closing, and liquidation that were
                                                                                                                     not detected in SBA’s purchase review processes,
                                                                                                                     resulting in improper payments. Increased lending
                                                                                                                     under the Recovery Act, combined with limited
                                                                                                                     SBA resources and higher default rates, put the
                                                                                                                     Agency at risk for even higher improper payments.




                                                                                                                     The Recovery Act establishes a new and
                                                                                                                     temporary program that allows SBA to establish a
                                                                                                                     Secondary Market Lending Authority that makes
                                                                                                                     direct loans to systematically important broker-
                                                                                                                     dealers (SISMBDs) who buy and sell the guarantied
                                                                                                                     portion of 7(a) loans in the secondary market.
                                                                                                                     These broker-dealers would use the loan funds to
                                                                                                                     purchase SBA-backed loans from commercial
                                                                                                                                                                            To determine whether loans to secondary market
                                                                                                                     lenders, assemble them into pools, and sell them
                                                                                                                                                                            broker-dealers were originated and closed in
              Secondary Market                                                                                       to investors in the secondary loan market. There
  SBA                                                  Performance        OIG Staff           Broker-Dealer Loans                                                           accordance with SBA program policies and                 No        Q4 FY 10   Q2 FY 11            1
              Lending Authority                                                                                      is no limit on the size of these loans. SBA must
                                                                                                                                                                            procedures and commercially prudent lending
                                                                                                                     implement the program on an expedited basis,
                                                                                                                                                                            standards.
                                                                                                                     which may result in loans being made before
                                                                                                                     effective controls and underwriting criteria has
                                                                                                                     been established. The new program is at risk for
                                                                                                                     increased fraud and losses from both the 7(a) loan
                                                                                                                     guaranty and the loan to the SISMBD.
                                                                                                                     Furthermore, the Recovery Act provides no
                                                                                                                     statutory limit on the maximum size of loans to an
                                                                                                                     SISMBD, greatly increasing the potential for losses.




Page 3 of Work Plan                                                                                                                                                                                                                                            2010RecoveryActWorkPlan.xls
                                                                                                         OIG FY 2010 Recovery Act Work Plan

                                                                                                                                                                                                                                     Review
                                                                                                                                                                                                                                  Included on   Expected   Expected
                                 Recovery Act Funds                                                                                                                                                                                                                       Expected
                                                                          Entity Performing                                                                                                                                           Prior      Quarter   Quarter(s)
    Agency       Program Area        Associated         Type of Review                              Project Title                          Background                                             Objective                                                              Number of
                                                                               Review                                                                                                                                               Recovery      Work      Reports
                                  w/Program Area                                                                                                                                                                                                                           Reports
                                                                                                                                                                                                                                    Act Plan     Begins      Issued
                                                                                                                                                                                                                                      (Y/N)


                                                                                                                       The Recovery Act expanded SBA's venture capital
                                                                                                                       program to increase the pool of investment
                                                                                                                       funding available to SBICs licensed by SBA. SBICs
                                                                                                                       are privately owned and managed by venture
                                                                                                                       capital firms, which are licensed and regulated by
                                                                                                                       SBA. There are about 338 SBICs with $17.4 billion
                                                                                                                       in capital. The Recovery Act permanently
                                                                                                                                                                             To determine: (1) whether SBICs are using
                                                                                                                       increases guaranteed leverage (in the form of
                                                                                                                                                                             increased leverage for the purposes directed by
                                                                                              Impact and Use of        debentures) to SBICs to $150 million for single
                                                                                                                                                                             the Recovery Act; (2) assess the impact of
                                                                                              Increased Small Business SBICs and up to $225 million for multiple SBICs
      SBA             SBIC                            Performance         OIG Staff                                                                                          increased leverage on small businesses; and (3)          No        Q1 FY 10   Q2 FY 10       1 or more
                                                                                              Investment Company       that are under common control. SBICs licensed
                                                                                                                                                                             determine whether commonly controlled SBICs
                                                                                              (SBIC) Leverage          after October 1, 2009, which certify that at least
                                                                                                                                                                             have exceeded maximum outstanding leverage
                                                                                                                       50 percent of their investments will be made in
                                                                                                                                                                             limits.
                                                                                                                       small businesses located in low-income areas, can
                                                                                                                       receive $175 million in guaranteed leverage for
                                                                                                                       single SBICs and up to $250 million for jointly
                                                                                                                       controlled multiple licenses. SBA's policies and
                                                                                                                       procedures restrict the maximum amount that
                                                                                                                       SBICs can invest in a single company or group of
                                                                                                                       affiliated companies.


                                                                                                                        The Recovery Act is intended to stimulate small
                                                                                                                        business lending, increase access to credit, and
                                                                                                                                                                             To assess the effectiveness of SBA's programs in
                                                                                                                        improve secondary market liquidity. Periodic
                                                                                                                                                                             meeting the goals of the Recovery Act of increased
                                                                                              Review of the Recovery    reviews of program data will allow OIG to monitor
                Loans and Loan                                                                                                                                               lending and job growth and to report to the
      SBA                                             Performance         OIG Staff           Act's Impact on SBA       how effectively SBA's programs are meeting the                                                               Yes        Q4 FY 09   Q2 FY 10            1
                  Guaranties                                                                                                                                                 Agency any weaknesses in program data and how
                                                                                              Lending                   goals of the Recovery Act. These reviews will also
                                                                                                                                                                             data is being used to measure the effectiveness of
                                                                                                                        allow the OIG to identify program trends as they
                                                                                                                                                                             Recovery Act programs.
                                                                                                                        occur, as well as indicators of control weaknesses
                                                                                                                        or fraud.


                                                                                                                        Under the Recovery Act of 2009, the SBA received
                                                                                                                        $730 million to expand the Agency's lending and
                                                                                              Review of SBA's Job
                                                                                                                        investment programs and to create new ones to        To evaluate the reliability of lender-reported job
                                                                                              Creation Data Under the
                Loans and Loan                                                                                          aid small business owners and revitalize the         creation and retention statistics, which are being
      SBA                                             Performance         OIG Staff           American Recovery and                                                                                                                   No        Q4 FY 09   Q2 FY 10       1 or more
                  Guaranties                                                                                            secondary market for SBA-guaranteed loans. Data      used as a major performance metric under the
                                                                                              Reinvestment Act of
                                                                                                                        reported on job creation and retention will be an    Recovery Act.
                                                                                              2009
                                                                                                                        important measure of the Recovery Act's success
                                                                                                                        and impact on the economy.


                                                                                                                                                                           To determine whether: (1) SBA has adequate
                                                                                                                                                                           controls in place over Recovery Act funds and the
                                                                                                                        In conjunction with the annual financial statement Recovery Act budget process is executed in
                                                                                                                        audit, OIG will modify the scope of its contract   accordance with Federal guidance; (2) SBA's
                                                                                              KPMG Audit of SBA's FY
                                                                                                                        with KPMG to include additional testing for        Office of Chief Financial Officer has established
                  Financial                             Administrative/                       2009 Financial
      SBA                                                                     Contractor                                Recovery Act activity. KPMG will assess the        general ledger accounts to properly track recovery        Yes        Q3 FY 09   Q1 FY 10       1 or more
                 Management                               Financial                           Statements - Statement
                                                                                                                        adequacy of SBA's internal controls to ensure that fund activity and has properly accounted for fixed
                                                                                              of Budgetary Resources
                                                                                                                        Recovery Act funds are properly tracked,           administrative costs; and (3) recorded spending
                                                                                                                        controlled, and reported.                          authority from offsetting collections are available
                                                                                                                                                                           for obligation and referenced to the appropriate
                                                                                                                                                                           authorizing legislation.




Page 4 of Work Plan                                                                                                                                                                                                                                             2010RecoveryActWorkPlan.xls
                                                                                                      OIG FY 2010 Recovery Act Work Plan

                                                                                                                                                                                                                                     Review
                                                                                                                                                                                                                                  Included on   Expected   Expected
                                Recovery Act Funds                                                                                                                                                                                                                        Expected
                                                                       Entity Performing                                                                                                                                              Prior      Quarter   Quarter(s)
    Agency       Program Area       Associated       Type of Review                              Project Title                          Background                                              Objective                                                                Number of
                                                                            Review                                                                                                                                                  Recovery      Work      Reports
                                 w/Program Area                                                                                                                                                                                                                            Reports
                                                                                                                                                                                                                                    Act Plan     Begins      Issued
                                                                                                                                                                                                                                      (Y/N)

                                                                                                                     In conjunction with the annual financial statement
                                                                                           KPMG Audit of SBA's FY
                                                                                                                     audit, OIG will modify the scope of its contract      To determine whether SBA has adequate
                                                                                           2009 Financial
                  Financial                          Administrative/                                                 with KPMG to include additional testing for           accounting controls in place over loan guaranty
      SBA                                                                 Contractor       Statements - Credit                                                                                                                       Yes        Q3 FY 09   Q1 FY 10          TBD
                 Management                            Financial                                                     Recovery Act activity. KPMG will assess the           approvals, purchases, modifications and charge-
                                                                                           Receivables - Loan
                                                                                                                     adequacy of SBA's internal controls over the loan     offs.
                                                                                           Guaranties
                                                                                                                     guaranty process.

                                                                                                                     The Recovery Act established new reporting            To determine whether SBA has established a
                                                                                                                     requirements related to the award and use of          process to perform limited data quality reviews
                                                                                           Adequacy of Controls
                  Financial                          Administrative/                                                 funds to promote transparency. We will review         intended to identify material omissions and/or
      SBA                                                                  OIG Staff       over FY 2009 Recovery                                                                                                                      No        Q4 FY 09   Q1 FY 10            1
                 Management                            Financial                                                     SBA’s process for monitoring recipient reporting of   significant reporting errors, and notify the
                                                                                           Act Recipient Reporting
                                                                                                                     Recovery Act funds for the quarter ending             recipients of the need to make appropriate and
                                                                                                                     September 30, 2009.                                   timely changes.


                                                                                                                     In conjunction with the annual financial statement    To determine whether SBA: (1) performs internal
                                                                                                                     audit, OIG will modify the scope of its contract      control assessments to evaluate the risk of waste,
                                                                                           KPMG Audit of SBA's FY    with KPMG to include additional testing for           fraud, and/or abuse and identifies strategies to
                  Financial                          Administrative/                       2009 Financial            Recovery Act activity. KPMG will assess the           prevent and timely detect waste, fraud, and abuse
      SBA                                                                 Contractor                                                                                                                                                 Yes        Q2 FY 09   Q1 FY 10          TBD
                 Management                            Financial                           Statements - Grant        adequacy of SBA's internal controls in place over     in grants; (2) has a system of quality controls for
                                                                                           Expenses Testwork         the grant management and accounting processes,        accrued grant liabilities in the financial statement
                                                                                                                     which will include Microloan program grants           footnotes; and (3) validates the accuracy of
                                                                                                                     funded by the Recovery Act.                           accrual amounts for a statistical sample of grants.


                                                                                                                                                                        To determine whether: (1) SBA has adequate
                                                                                                                                                                        controls in place over Recovery Act funds and the
                                                                                                                     In conjunction with the annual financial statement Recovery Act budget process is executed in
                                                                                                                     audit, OIG will modify the scope of its contract   accordance with Federal guidance; (2) SBA's OCFO
                                                                                           KPMG Audit of SBA's FY
                                                                                                                     with KPMG to include additional testing for        has established general ledger accounts to
                  Financial                          Administrative/                       2010 Financial                                                                                                                                                                     1
      SBA                                                                 Contractor                                 Recovery Act activity. KPMG will assess the        properly track recovery fund activity and has                 No        Q2 FY 10   Q1 FY 11
                 Management                            Financial                           Statements - Statement                                                                                                                                                          or more
                                                                                                                     adequacy of SBA's internal controls to ensure that properly accounted for fixed administrative costs;
                                                                                           of Budgetary Resources
                                                                                                                     Recovery Act funds are properly tracked,           and (3) recorded spending authority from
                                                                                                                     controlled, and reported.                          offsetting collections is available for obligation and
                                                                                                                                                                        referenced to the appropriate authorizing
                                                                                                                                                                        legislation.


                                                                                                                     In conjunction with the annual financial statement
                                                                                           KPMG Audit of SBA's FY
                                                                                                                     audit, OIG will modify the scope of its contract      To determine whether SBA has adequate
                                                                                           2010 Financial
                  Financial                          Administrative/                                                 with KPMG to include additional testing for           accounting controls in place over loan guaranty
      SBA                                                                 Contractor       Statements - Credit                                                                                                                        No        Q2 FY 10   Q1 FY 11          TBD
                 Management                            Financial                                                     Recovery Act activity. KPMG will assess the           approvals, purchases, modifications and charge-
                                                                                           Receivables - Loan
                                                                                                                     adequacy of SBA's internal controls over the loan     offs.
                                                                                           Guaranties
                                                                                                                     guaranty process.

                                                                                                                     In conjunction with the annual financial statement
                                                                                                                     audit, OIG will modify the scope of its contract
                                                                                           KPMG Audit of SBA's FY    with KPMG to include additional testing for
                                                                                                                                                                        To determine whether SBA has adequate controls
                  Financial                          Administrative/                       2010 Financial            Recovery Act activity. KPMG will assess the
      SBA                                                                 Contractor                                                                                    in place over loan guaranty loan approvals,                   No        Q3 FY 10   Q1 FY 11          TBD
                 Management                            Financial                           Statements - Grant        adequacy of SBA's internal controls in place over
                                                                                                                                                                        purchases, modifications and charge-offs.
                                                                                           Expenses Testwork         the grant management and accounting processes,
                                                                                                                     which will include Microloan program grants
                                                                                                                     funded by the Recovery Act.




Page 5 of Work Plan                                                                                                                                                                                                                                             2010RecoveryActWorkPlan.xls
                                                                                                         OIG FY 2010 Recovery Act Work Plan

                                                                                                                                                                                                                                      Review
                                                                                                                                                                                                                                   Included on    Expected   Expected
                                  Recovery Act Funds                                                                                                                                                                                                                        Expected
                                                                          Entity Performing                                                                                                                                            Prior       Quarter   Quarter(s)
    Agency       Program Area         Associated       Type of Review                               Project Title                          Background                                             Objective                                                                Number of
                                                                               Review                                                                                                                                                Recovery       Work      Reports
                                   w/Program Area                                                                                                                                                                                                                            Reports
                                                                                                                                                                                                                                     Act Plan      Begins      Issued
                                                                                                                                                                                                                                       (Y/N)

                                                                                                                        Under the Recovery Act, SBA received $20 million      To determine whether SBA has: (1) adopted an
                                                                                                                        to improve, streamline, and automate information      acquisition plan for the procurements that
                                                                                              Planning and Award        technology systems related to lender processes        promote competition, protect the taxpayer, and
                                                                                              Process for Information   and lender oversight. SBA intends to issue a series   provide measurable outcomes; (2) ensured
                                                       Administrative /
      SBA             Contracts   $       20,000,000                          OIG Staff       Technology Contracts      of contracts using various contract types and         contractors are qualified and that contracts            Yes        Q3 FY 09    Q1 FY 10       1 or more
                                                         Financial
                                                                                              Awarded Under the         methods. Because SBA plans to use contractors to      contained required Recovery Act provisions; and
                                                                                              Recovery Act              manage the award of these contracts and has few       (3) properly posted solicitations and contract
                                                                                                                        staff to oversee them, there is an increased risk     awards to meet the transparency requirements of
                                                                                                                        that the contracts may not be properly awarded.       the Recovery Act.


                                                                                                                        SBA has designated six Recovery Act-funded
                                                                                                                                                                              To determine whether SBA is (1) managing the IT
                                                                                                                        projects totaling $20 million as high priority and
                                                                                                                                                                              projects within cost, schedule, and performance
                                                                                              Management of IT          set ambitious deadlines for their implementation.
                                                       Administrative/                                                                                                        goals; and (2) complying with Federal laws and
      SBA        Performance                                                  OIG Staff       Projects Funded By the    The audit will examine how well SBA is managing                                                                No         Q2 FY 10    Q1 FY 11           1
                                                         Financial                                                                                                            regulations regarding the development and
                                                                                              Recovery Act              the Recovery Act projects, given concerns raised in
                                                                                                                                                                              protection of Federal information systems and
                                                                                                                        prior OIG reports about the Agency's oversight of
                                                                                                                                                                              data.
                                                                                                                        other IT projects.


                                                                                                                                                                              To determine whether SBA has: (1) awarded and
                                                                                                                       The Recovery Act authorizes $24 million for
                                                                                                                                                                              administered grants for technical assistance in a
                                                                                                                       marketing, management, and technical assistance
                                                                                                                                                                              manner that will result in meaningful and
                                                                                              Audit of Technical       activities under SBA’s Microloan program. SBA
                                                       Administrative/                                                                                                        measurable outcomes; (2) adequate safeguards in
      SBA         Microloans      $       24,000,000                          OIG Staff       Assistance Grants in the makes grants to nonprofit community‐based                                                                      Yes        Q2 FY 10    Q4 FY 10            1
                                                         Financial                                                                                                            place to ensure that funds are used for their
                                                                                              Microloan Program        lenders ("intermediaries"), who make loans under
                                                                                                                                                                              intended purpose; (3) issued awards timely; and
                                                                                                                       the program, to provide business based training
                                                                                                                                                                              (4) initiated adequate oversight to mitigate
                                                                                                                       and technical assistance to its microborrowers.
                                                                                                                                                                              additional risks associated with the Recovery Act.


                                                                                                                       Because of the high risk associated with the award
                                                                                                                       and expenditure of Recovery Act funds, OMB has
                                                                                                                       re-emphasized the importance of providing
                                                                                                                                                                              To determine whether: (1) SBA is providing
                                                                                              Oversight of Information adequate oversight of Recovery Act contracts to
                                                                                                                                                                              adequate oversight of IT contracts funded by the
                                                       Administrative /                       Technology Contracts     mitigate risks. Because SBA is largely using
      SBA             Contracts                                               OIG Staff                                                                                       Recovery Act; and (2) SBA appointed qualified            No        Q1 FY 10    Q3 FY 10       1 or more
                                                         Financial                            Awarded Under the        contractors to oversee the $20 million in IT
                                                                                                                                                                              contracting personnel to monitor contractor
                                                                                              Recovery Act             contracts that will be awarded with Recovery Act
                                                                                                                                                                              performance.
                                                                                                                       funds and may not have sufficient staff to oversee
                                                                                                                       them, the audit will evaluate how well the
                                                                                                                       contract oversight process is being managed.




Page 6 of Work Plan                                                                                                                                                                                                                                               2010RecoveryActWorkPlan.xls
